                      ort




       YEAR 2000 CERTIFICATION OF MISSION-CRITICAL
         DOD INFORMATION TECHNOLOGY SYSTEMS



Report No. 98-147                          June 5, 1998




              Office of the Inspector General
                  Department of Defense
 Additional Copies

 To obtain additional copies of this audit report, contact the Secondary Reports
 Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
 (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
 General, DOD, Home Page at: WWW.DODIG.OSD.MIL.

 Suggestions for Future Audits

 To suggest ideas for or to request future audits, contact the Planning and
 Coordination Branch of the Analysis, Planning, and Technical Support
 Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas
 and requests can also be mailed to:

                   OAIG-AUD (ATTN: APTS Audit Suggestions)
                   Inspector General, Department of Defense
                   400 Army Navy Drive (Room 801)
                   Arlington, Virginia 22202-2884

 Defense Hotline

 To report fraud, waste, or abuse, contract the Defense Hotline by calling
 (800) 424 9098; by sending an electronic message to
 Hotline@DODIG.OSD.MIL; or by writing to the Defense Hotline, The
 Pentagon, Washington, D.C. 20301-1900. The identity of each writer and caller
 is fully protected.




Acronyms

Y2K                  Year 2000
                            INSPECTOR GENERAL
                            DEPARTMENT    OF DEFENSE
                              400 ARMY NAVY DRIVE
                            ARLINGTON. VIRGINIA 22202




                                                                           June 5, 1998

MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE (COMMAND,
               CONTROL, COMMUNICATIONS, AND INTELLIGENCE)

SUBJECT: Audit Report on Year 2000 Certification of Mission-Critical DOD
         Information Technology Systems (Report No. 98-147)


      We are providing this audit report for review and comment. We considered
management comments on a draft of this report in preparing the final report.

      DOD Directive 7650.3 requires that all recommendations be resolved promptly.
We request you to provide planned actions and completion dates for the
recommendations by July 6, 1998.

       We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Ms. Mary Lu Ugone at (703) 604-9049 (DSN 664-9049) or
Mr. James W. Hutchinson at (703) 6049060 (DSN 6649060). See Appendix D for
the report distribution. The audit team members are listed inside the back cover.




                                        David K. Steensma
                                 Deputy Assistant Inspector General
                                           for Auditing
                           Office of the Inspector General, DOD
Report No. 98-147                                                           June 5, 1998
  (Project No. 8AS-0011)

                  Year 2000 Certification of Mission-Critical
                    DOD Information Technology Systems

                                  Executive Summary

Introduction. This is one in a series of reports being issued by the Inspector General,
DOD, in accordance with an informal partnership with the Chief Information Officer, DOD,
to monitor DOD efforts to address the year 2000 computing challenge.

The year 2000 problem is the term most often used to describe the potential failure of
information technology systems to process or perform date-related fi.mctions before, on,
or after the turn of the next century.

Audit Objectives. Our objective was to determine whether the year 2000 certification
process is adequate to ensure that mission-critical DOD information technology systems
will continue to operate properly after the year 2000. Specifically, the audit examined
DOD management policy and guidance relevant to certifying information technology
systems as year 2000 compliant. The audit also evaluated the year 2000 certification
process of selected mission-critical DOD information technology systems as
implemented by the DOD Components.

Audit Results. DOD Components are not complying with year 2000 certification
criteria before reporting systems as compliant. Of the 430 systems that DOD reported
as year 2000 compliant in November 1997, we estimate that DOD Components certified
only 109 systems (25.3 percent) as year 2000 compliant. As a result, DOD
management reported as year 2ooO compliant systems that have not been certified.
More important, mission-critical DOD information technology systems may
unexpectedly fail because they were classified as year 2000 compliant without adequate
basis. The results are based on a randomly selected sample of 87 systems that DOD had
reported as year 2000 compliant. Our statistical sampling methodology is described in
Appendix A. A signed year 2000 compliance checklist was requested for each of the
systems selected. See Part I for details of the audit results.

Summary of Recommendations. We recommend that the Assistant Secretary of
Defense (Command, Control, Communications, and Intelligence) clarify certification
requirements to include verification and validation, issue clear year 2000 quarterly
reporting requirements, and develop guidance for signature by the Deputy Secretary of
Defense that directs DOD Components to establish oversight processes and procedures to
enforce the requirements established in the other recommendations.

Management Comments. The Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) concurred with the draft recommendations, stating
that management currently is updating the Management Plan and must update the
reporting requirements quarterly. Additionally, management will propose actions by the
Deputy Secretary of Defense to clarify the importance of year 2000 compliance and the
enforcement of reporting and evaluation requirements. See Part I for a summary of
management comments and Part III for the complete text of the comments.

Audit Response. Management concurred with the recommendations but did not provide
the specific actions to be implemented. Management stated that the Management Plan
would be updated but did not discuss how the updated Management Plan would clarify
year 2000 certification requirements. Management stated that the reporting requirements
must be updated quarterly to comply with the latest Office of Management and Budget
guidance but did not state that the guidance would be modified to prevent titure
occurrence of the errors that we identified in the report. Because of the time sensitivity of
the year 2000 issue, the guidance on certification requirements needs to be effective
immediately. Because the release date for the Management Plan update is unknown, an
alternative solution may be to issue separate guidance on the certification process to be
effective immediately. We request that the Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence) provide specific actions and associated
completion dates for the guidance on certification requirements, quarterly reporting
requirements, and the oversight process by July 6, 1998.




                                              ii
Table of Contents
Executive Summary                                                               i

Part I - Audit Results
      Audit Background                                                         2
      Audit Objectives                                                         5
      Year 2000 Certification of Mission-Critical DOD Information
                 Technology Systems                                            6

Part II - Additional Information
      Appendix A. Audit Process
        Scope and Methodology                                                  16
        Statistical Sampling Methodology and Sampling Results                  17
      Appendix B. Summary of Prior Coverage                                    19
      Appendix C. Certification and Testing Results for Mission-Critical DOD
                     Information Systems Audited                               21
      Appendix D. Report Distribution                                          24

Part III - Management Comments
      Office of the Assistant Secretary of Defense (Command, Control,
         Communications, and Intelligence) Comments                            28
Part I - Audit Results
Audit Background

    Year 2000 Date Processing Problem. The year 2000 (Y2K) problem is the
    term most often used to describe the potential failure of information technology
    systems to process or perform date-related functions before, on, or after the turn
    of the next century. The Y2K problem is rooted in the way that dates are
    recorded and computed in automated information systems. For the past several
    decades, systems have typically used two digits to represent the year, such
    as “97” representing 1997, to conserve electronic data storage and to reduce
    operating costs. With the two-digit format, however, the year 2000 is
    indistinguishable from 1900, or 2001 from 1901, and so forth. As a result of
    the ambiguity, system or application programs that use dates to perform
    calculations, comparisons, or sorting could generate incorrect results when
    working with years following 1999. Calculation of Y2K dates is further
    complicated because the year 2000 is a leap year, the first century leap year
    since 1600. The computer systems and applications must recognize
    February 29, 2000, as a valid date.

    Because of the potential failure of computers to run or function throughout the
    Government, the President issued an Executive Order, “Year 2000
    Conversion,” February 4, 1998, making it policy that Federal agencies ensure
    that no critical Federal program experiences disruption because of the Y2K
    problem. The Executive Order also requires that the head of each agency
    ensure that efforts to address the Y2K problem receive the highest priority
    attention in the agency. In addition, the General Accounting Office has
    designated resolution of the Y2K problem as a high-risk area, and DOD has
    recognized the Y2K issue as a material management control weakness area in
    the FY 1997 Annual Statement of Assurance.

     As of November 1997, DOD reported 3,143 mission-critical systems* to the
     Office of Management and Budget. The total cost of the DOD Y2K effort was
     estimated at about $1.5 billion.

     Department of Defense Year 2000 Management Plan. The Assistant
     Secretary of Defense (Command, Control, Communications, and Intelligence)
     issued the “DOD Year 2000 Management Plan” (Management Plan) in
     April 1997. The Management Plan provides the overall DOD strategy and
     guidance for inventorying systems, prioritizing systems, retiring systems, and
     monitoring progress. The Management Plan makes the DOD Components
     responsible for implementing the five-phase Y2K management process. The
     goal is to have all DOD systems certified as Y2K compliant and implemented no
     later than November 1, 1999.

            The DOD Five-Phase Management Process. Each of the five phases is
     supported by program and project management and represents a major Y2K


     *When a mission-critical system’s capabilities are degraded, the organization
     realizes a resulting loss of a core capability.

                                         2
program activity or segment. The April 1997 Management Plan shows the
following target completion dates for the five phases ranging from
December 1996 through November 1, 1999.

       l   Phase I - Awareness. Awareness, education, and initial organization and
planning take place. Target completion date: December 1996.

       l Phase II - Assessment. Scope of Y2K effects is identified, and
system-level analysis takes place. Target completion date: June 1997.

       l Phase III - Renovation. Required system renovations are accomplished
Target completion date: December 1998.

        l Phase IV - Validation. Systems are certified as Y2K compliant as a result
of various testing and compliance processes. Target completion date:
January 1999.

         l Phase V - Implementation. Systems are fWy operational after being
certified in Phase IV. Target completion date: November 1, 1999.

The Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) is in the process of issuing an updated Management Plan, which
further accelerates the target completion dates for the Renovation, Validation,
and Implementation phases, resulting in a completion date of December 1998.

In a memorandum for the heads of executive departments and agencies, dated
January 20, 1998, the Office of Management and Budget established a new
target date of March 1999 for implementing all corrective actions to all systems.
The new target completion dates are September 1998 for the Renovation phase
and January 1999 for the Validation phase.

        Certification. The Management Plan requires that the system
developers or maintainers and the system’s functional proponent certify and
document each system’s Y2K compliance. According to the Management Plan,
a system is certified when the system manager signs a Y2K compliance
checklist. An example of a Y2K compliance checklist is in Appendix B of the
Management Plan. The purpose of the checklist is to assist system managers in
ensuring that their systems are Y2K compliant.

        Testing. The Management Plan states that a validation schedule should
be developed for all systems during the assessment phase and that validation
should be completed as soon as possible. Validation, according to the
Management Plan, includes evaluating the system to determine whether it is
Y2K compliant. Also during the assessment phase, every piece of code should
be examined to determine whether any two-digit date handling is involved.
According to the Management Plan, DOD Components should develop and
document test and compliance plans and schedules for each converted or
replaced application or system component. Additionally, DOD Components are
responsible for determining whether the vendor software is Y2K compliant.
DOD Components must also ensure that the contractor-converted systems are
tested.

                                      3
Year 2000 Guidance Developed by DOD Components. The Army, the
Air Force, the Defense Logistics Agency, and the Defense Information Systems
Agency each issued internal Y2K guidance to address the Y2K problem. Each
guidance package requires a compliance/certification checklist to be completed
and testing to be done. The Washington Headquarters Services, the Defense
Special Weapons Agency, the Defense Finance and Accounting Service, and the
Assistant Secretary of Defense (Health Affairs) use the Management Plan for
Y2K guidance.

        Army. The Army “Project Change of Century Action Plan,
Revision I,” October 4, 1996, provides the Army strategy and management
approach for addressing the Y2K problem. The Army plan requires system
developers or maintainers and the system’s functional proponent to certify and
document each system’s Y2K compliance. According to the Army plan, testing
must include regression testing, integrated testing, and simulated Y2K testing.
The Army compliance checklist guidance dated June 1997 states that a system or
device is not considered Y2K compliant until positive results have been
achieved in accordance with compliance levels outlined in Section 10 of the
Army plan checklist. The checklist is required for each Army system that has
been reported to the Army year 2000 database. The checklist is required for
systems previously assessed and found to be compliant, systems that contain no
date information, and systems with no Y2K impact.

         Air Force. The Air Force “Year 2000 Guidance Package, ”
April 1, 1997, describes the Air Force Y2K management issues and the
five-phase resolution process. The guidance states that system owners, users,
designers, and developers should not assume that any system is Y2K compliant
until it has been “extensively analyzed using proven methods.” The Air Force
requires that every system classified as Y2K compliant have incorporated the
compliance checklist in the validation process. The Air Force believes that
completing the checklist will not guarantee that a system will be Y2K
compliant, but that the checklist will give system managers a “tremendous start
in their certification efforts. ” The guidance states that each system should be
certified as Y2K compliant after testing is complete, and it recommends the use
of independent testing or validation organizations.

         Defense Logistics Agency. The Defense Logistics Agency “Year 2000
AIS [Automated Information System] Certification Guidance,”
October 27, 1997, defines the conditions that must be met for an automated
information system to be considered Y2K compliant. The guidance states that
the Y2K certification checklist is to be completed during testing. The Y2K
certification checklist “only indicates potential readiness for the functional area
to start functional testing.” The Y2K certification checklist is formally
completed during functional testing. The completed checklist is sent to the Year
2000 Program Office to update the certification status.

        Defense Information Systems Agency. The “Defense Information
Systems Agency Year 2000 Testing Guideline,” November 12, 1997, provides
the strategy for all systems that require Y2K testing by the Defense Information
Systems Agency. The guidance states that it can be used for all DOD systems to
“provide reasonable assurance that the Y2K problem has been resolved.” The

                                     4
     guidance states that tested systems are deemed compliant if they meet the
     compliance requirements in the Management Plan. The guidance states that
     Y2K test results should be used to determine whether the system is compliant.
     The guidance also states that the Defense Information Systems Agency’s goal is
     to ensure that the systems are Y2K compliant “by providing a rigorous Y2K test
     management approach. ”

     On January 22, 1998, the Vice Director of the Defense Information Systems
     Agency issued a memorandum recommending that central design activities
     (organizations that design and produce software that is used on a DOD
     Component-wide or DOD-wide basis) specifically qualify Y2K testing results to
     help avert potential legal liabilities. The suggested disclaimer provides no
     guarantee that any information technology product that passed Y2K compliance
     testing is actually Y2K compliant.


Audit Objectives
     Our objective was to determine whether the Y2K certification process is
     adequate to ensure that mission-critical DOD information technology systems
     will continue to operate properly after the year 2000. Specifically, the audit
     examined DOD management policy and guidance relevant to certifying
     information technology systems as Y2K compliant. The audit also evaluated the
     Y2K certification process of selected mission-critical DOD information
     technology systems as implemented by the DOD Components. See Appendix A
     for a discussion of the audit scope and methodology.
           Year 2000 Certification of
           Mission-Critical DOD Information
           Technology Systems
           Based on a randomly selected sample of 87 out of 430 systems that DOD
           reported as Y2K compliant in November 1997, we estimate that DOD
           Components certified only 109 (25.3 percent) of the 430 systems as Y2K
           compliant. Although the Management Plan contains guidance regarding
           Y2K certification, the DOD Components did not certify the majority of
           the sampled systems reported as Y2K compliant.

           Systems were not certified because DOD Components did not adequately
           implement and enforce the guidance in the Management Plan or their
           own Y2K guidance. Additionally, the Management Plan is not
           consistently clear as to specific Y2K certification requirements.

           As a result, DOD management reported as Y2K compliant systems that
           have not been certified. More important, mission-critical DOD
           information technology systems may unexpectedly faii because they were
           classified as Y2K compliant without adequate verification and validation.


DOD Year 2000 Guidance
    Y2K Status Reporting. The DOD Components are required to report quarterly
    to the Office of the Assistant Secretary of Defense (Command, Control,
    Communications, and Intelligence) the Y2K status of their mission-critical
    systems. In turn, the Offke of the Assistant Secretary of Defense (Command,
    Control, Communications, and Intelligence) provides the results to the Office of
    Management and Budget. In November 1997, DOD reported that 430 DOD
    mission-critical systems (excluding 242 systems from DOD intelligence
    organizations) were Y2K compliant. The following table shows the number of
    systems reported as Y2K compliant for each DOD Component.




                                         6
Year 2000 Certification   of Mission-Critical   DoD Information   Technology    Systems


           Y2K Compliant Mission-Critical       Systems:   November 1997

                                                              Number of Y2K
                       Component                             Conipliant Systems

     Assistant Secretary of Defense (Health mairs)                              42
     Department of the Army                                                    188
     Department of the Air Force                                                97
     Defense Contract Audit Agency                                               1
     Defense Finance and Accounting Service                                     12
     Defense Information Systems Agency                                         14
     Defense Logistics Agency                                                   17
     Defense Security Assistance Agency                                           1
     Defense Special Weapons Agency                                              3
     Washington Headquarters Services                                           55
      Total                                                                    430


     The Department of the Navy did not report any compliant systems for the
     November 1997 Quarterly Report.

     DOD Year 2000 Certification Requirements and Process. The Management
     Plan states that system owners, users, designers, and developers cannot assume
     that any system is Y2K compliant until the system manager certifies it. According
     to the Management Plan, a system is not certified until the system manager signs a
     Y2K compliance checklist. The checklist is a tool for ensuring that the system
     manager has considered Y2K aspects. Those aspects include whether the system
     successfUlly processes data containing dates in the twentieth and twenty-first
     centuries and other indirect date usage, whether the system accurately recognizes
      and processes the year 2000 as a leap year and other internal usage of dates, and
      whether the DOD Component has identified external system interfaces and the type
      of date fields used by the system. The checklist also poses Y2K considerations if
      commercial software or software that the Government previously developed is
      used in the system. The Y2K guidance that the Army, the Air Force, the Defense
      Logistics Agency, and the Defense Information Systems Agency developed also
      requires the completion of a checklist.

      Purpose of the Y2K Compliance Checklist. The overall intent of the Y2K
      compliance checklist is to help guide the system manager in ensuring that a system
      is Y2K compliant. A Y2K compliant system accurately processes and calculates
      date data from, into, and between the twentieth and twenty-first centuries and
      correctly recognizes leap years. Additionally, the system should successfUlly
      process data containing dates with no adverse effect on the application’s
      tinctionality. The system manager should accomplish two vital steps before



                                           7
Year 2000 Certification of Mission-Critical DoD Information Technology Systems

      certifying a system as compliant. The first step is verification that all potential
      Y2K impacts on the system were identified and, if necessary, that the selection and
      implementation of appropriate solutions were made. The second step is validation
      that any Y2K corrective actions are effective, and that the system accurately
      processes and calculates dates between centuries. Validation is normally
      performed through actual testing; the type of validation performed directly relates
      to the level of certification indicated on the checklist. Completion of the Y2K
      compliance checklist is not a guarantee of Y2K compliance; however, completion
      of the Y2K compliance checklist for each mission-critical system should provide
      senior management with an indicator and documented evidence that the system has
      been appropriately reviewed for potential Y2K impacts and that the necessary
      corrections were implemented.


Compliance With Year 2000 Certification Guidance
      The level of compliance with Y2K certification requirements was low, and specific
      Y2K certification requirements were not uniformly clear. For each of the 87
      systems randomly selected from the 430 systems that DOD had reported as Y2K
      compliant, we asked the designated point of contact for the certification date of the
      system and a copy of the Y2K compliance checklist. Our statistical sampling
      approach and methodology is described in Appendix A. We received answers to
      the questionnaire for 83 of the 87 systems.

      Compliance With Certification Requirements. System representatives
      provided a copy of a Y2K compliance checklist, signed as of November 1997, for
      only 22 of the 83 systems that provided results in our sample. After allowing for
      the 4 systems for which we received no results, we concluded, with a 95percent
      confidence level, that between 265 and 338 systems were not certified. Using the
      unbiased point estimate of 301 systems, we project that 70 percent of the systems
      reported as compliant in November 1997 did not complete a Y2K compliance
      checklist, which the system manager also signed as of November 1997.

       Also, the existence of a completed and signed Y2K compliance checklist did not
       always mean that the system was Y2K compliant. The points of contact for 3 of
       the 22 systems in our sample with completed and signed checklists indicated that
       the systems were not fully Y2K compliant at the time that the checklist was signed.
       We also noted that the Management Plan does not clearly require that validation of
       Y2K compliance, such as testing systems impacted by dates, be completed before
       certification. The requirement in the Management Plan for certification is that the
       system manager signs the Y2K compliance checklist. Another 2 of the 22 systems
       in our sample certified as Y2K compliant were not validated and had “not
       applicable” for every answer on the checklist. DOD Components need to test
       systems impacted by dates to validate that the system is Y2K compliant. The
       Management Plan’s Y2K certification process should state a clear requirement for
       validation, including testing for systems impacted by dates, or the Assistant
       Secretary of Defense (Command, Control, Communications, and Intelligence)
       should issue separate guidance on the certification process.



                                            8
Year 2000 Certification of Mission-Critical DOD Information Technology Systems

     The Defense Finance and Accounting Service and the Defense Logistics Agency
     provided completed and signed checklists for all of their systems included in our
     sample. Appendix C presents the audit results for each of the sampled systems.

     Clarity of Year 2000 Certification Guidance. The Management Plan does not
     clearly describe the certification process or specific requirements. For example,
     the Management Plan:

              l states that system manager signature on the checklist constitutes
     certification, but does not prohibit the checklist from being signed before full Y2K
     compliance is achieved;

             l does not clearly state that completion of the Y2K compliance checklist,
     or a similar checklist providing for Y2K verification and validation, is required
     before a system can be reported as Y2K compliant;

             l does not define the Office of the Assistant Secretary of Defense
     (Command, Control, Communications, and Intelligence) or DOD Component-level
     oversight requirements or processes for DOD Y2K organizations and actions to
     ensure accurate Y2K reporting; and

              l provides for a level of certification defined as “not certified or not
     certified yet.” The legitimacy of certifj+g a system on that basis is not clear.

     The purpose of the Y2K compliance checklist is to assist in ensuring that the
     system is Y2K compliant; however, system managers could complete and sign the
     checklist without the system being fully compliant or validated for compliance.
     The Office of the Assistant Secretary of Defense (Command, Control,
     Communications, and Intelligence) should include requirements for compliance
     and validation in the certification process in the Management Plan. Currently, the
     only specific requirement for Y2K certification in the Management Plan is the
     system manager’s signature on the Y2K compliance checklist. The Management
     Plan has been under revision for more than 6 months.


Year 2000 Testing of Mission-Critical Systems
     Certification Levels. The Management         Plan compliance checklist requires that
     each system representative indicate a level of certification. Some of the
     certification levels are keyed to the particular type of validation performed. For
     example, a system representative would indicate a certification level of “ 1” if the
     system was independently tested. A system would merit a level of “2” if an
     independent audit of the system and existing testing was performed. Although
     caution is provided that an assumption of higher risk is involved, several
     certification level “3” options are described for self-certification. The
     self-certification levels are not keyed to any particular type of testing.
Year 2000 Certification   of Mission-Critical     DoD Information   Technology Systems

       Because self-certification can involve considerable risk to obtaining an objective
       validation that a system is YZK compliant and because the certification level that
       the checklist in the Management Plan requires is not keyed to any particular type
       of validation, our questionnaire contained additional validation choices on which
       system managers could have based certification levels. We asked the point of
       contact for each system in our sample to select the most appropriate choice from
       our list of bases for certification.

       Types of Y2K Validation Performed. Of the 83 systems that provided results in
       our sample, 32 were actually tested for Y2K compliance; 14 systems were
       inspected without testing (such as a manual review of the system’s software code);
       7 systems were considered Y2K compliant based on a statement from another
       organization; and 30 systems were considered Y2K compliant without testing,
       inspection without testing, or a statement from another organization regarding
       Y2K compliance. The Defense Finance and Accounting Service and the Defense
       Logistics Agency provided test results for all of their sampled systems. The
       points of contact for 17 of the 5 1 systems that did not undergo actual testing
       stated that they are currently testing or will test the systems in the future. The
       points of contacts for 2 of the 32 systems that were actually tested stated that they
       will perform additional testing of the systems.

       We considered actual testing to be independent testing or organizational testing,
       with or without an independently verified process. However, we fully recognize
       that other types of validation may be an adequate basis for certification. For
       instance, software inspection may be adequate when the individual inspecting the
       software does not anticipate a date processing dependency, such as for software
       embedded in weapon systems. While embedded software probably measures
       elapsed time, the need to measure elapsed days in a combat scenario is not
       probable. The same assumption, however, cannot be made for software that
       supports a weapon system. For example, an aircraft maintenance system probably
       has date dependencies. The system points of contact for 6 of the 14 systems in
       our sample that were inspected without testing stated that the system did not use
       dates.

       Although the Management Plan states that DOD Components should complete
       validation of the system as soon as possible, it does not clearly require system
       managers to validate Y2K compliance before certification of a system. Testing is
       the tool used to validate that a system impacted by dates will correctly process
       date and date-related data in the twentieth and twenty-first centuries. According
       to the Management Plan, DOD Components must test the individual applications,
       computer platforms, operating systems, utilities, applications, databases, and
       interfaces for Y2K compliance.




                                             10
Year 2000 Certification of Mission-Critical DoD Information Technology Systems

     Of the 430 systems reported as compliant in November 1997, our sample
     results, which are detailed in Appendix A, showed that the majority did not
     undergo actual testing to validate Y2K compliance. Based on our sample
     results, we project the following:

             l 158 (36.8 percent) of the 430 systems reported as compliant were
     actually tested for Y2K compliance.

              l 69 (16.1 percent) of the 430 systems reported as Y2K compliant were
     determined to be Y2K compliant through an inspection of the system without
     testing.

              l 35 (8 percent) of the 430 systems reported as Y2K compliant were
     classified as Y2K compliant based on statements from another organization. The
     Management Plan states that the DOD Component must determine whether the
     vendor software is Y2K compliant, and it must not accept vendor certification at
     face value.

            l 148 (34.5 percent) of the 430 systems were reported as compliant
     without testing, inspection without testing, or a statement from another
     organization regarding Y2K compliance.

     Four systems did not provide answers to our questionnaire. Therefore, the
     projection categories just listed do not total 430 systems, or 100 percent.


Impact on Accuracy of DOD Reports
     The DOD Components did not correctly report many of the 87 systems selected
     from the 430 systems that DOD reported as Y2K compliant in November 1997.
     Inspector General, DOD, Report No. 98-077, “Year 2000 Computing Problem
     Reports: August 1997 Report,” February 18, 1998, states that Y2K reporting
     definitions and procedures were not clear or well understood by DOD
     Components. Accordingly, the information that DOD provided to the Office of
     Management and Budget was not fully reliable. The results of this audit
     indicate that the requirements related to Y2K quarterly reporting are still not
     well understood or consistently complied with. For example:

             l For 9 of the 87 systems in our sample, the points of contact indicated
     that the systems are no longer classified as mission-critical.

            l For 13 of the 87 systems, the points of contact indicated that the systems
     were actually in a Y2K phase before implementation.




                                          11
Year 2000 Certification of Mission-Critical DODInformation Technology Systems

             l  For 4 of the 87 systems, the points of contact indicated that the systems
      were in the development stage, were not developed, or were not received.

             l According to the point of contact, one Y2K compliant system in our
      sample was an office of people, not an automated system.

      The primary purpose of the quarterly reports is to provide senior DOD and
      Federal Government managers with a tool to measure progress in the solving of
      the Y2K “problem. ” We noted that the number of systems that DOD reported
      in November 1997 as already Y2K compliant actually decreased by 91 systems
      (excluding DOD intelligence agencies) from the August 1997 report. We
      believe that the primary reason for that decrease in compliant systems is more
      conservative and realistic reporting by the DOD Components. While we
      applaud more accurate Y2K reporting, we also recognize that the decrease in
      Y2K compliant systems reported in November 1997 indicates that a baseline for
      measuring progress has yet to be established. Until DOD issues firm reporting
      guidance, we concluded that a stable and useful reporting baseline will continue
      to be elusive.


Conclusion

      DOD is reporting systems as Y2K compliant that have not been appropriately
      certified or validated. Of the 430 systems reported in November 1997 as Y2K
      compliant, we project that only 109 were certified as Y2K compliant. Certification
      of Y2K compliance is required not only for accurate reporting, but also for
      providing DOD senior management with reasonable assurance that DOD automated
      systems will continue to operate correctly into the next century. The inappropriate
      reporting of systems as compliant may impede DOD from obtaining the necessary
      visibility to ensure a thorough and successful transition to Y2K compliance for all
      DOD systems. Without that smooth transition, DOD mission-critical information
      technology systems may unexpectedly fail because they were erroneously
      classified. The Y2K certification process should include clear requirements for
      compliance and validation, including testing for systems impacted by dates, to help
      ensure that mission-critical systems will not fail upon the turn of the century.

      Sufficient time to fix the DOD Y2K “problem” is quickly running out. The year
      2000 will arrive exactly on schedule. Senior DOD management cannot afford to
      make Y2K program decisions based on highly inaccurate information. If DoD
      does not take the action that it needs to obtain accurate information as to the
      status of its Y2K efforts, we believe that serious Y2K failures may occur in DOD
      mission-critical information technology systems.




                                            12
Year 2000 Certification   of Mission-Critical   DoD Information    Technology    Systems



Recommendations, Management Comments, and Audit
Response
     We recommend that the Assistant Secretary of Defense (Command,             Control,
     Communications, and Intelligence):

     1. Issue to DOD Components clarified DOD year 2000 certification
     requirements, to include specific verification and validation requirements,       to
     be effective immediately.

     2. Issue to DOD Components       clear, firm year 2000 quarterly reporting
     requirements.

     3. Develop guidance for the signature of the Deputy Secretary of Defense
     that directs DOD Components to establish oversight processes and procedures
     to effectively enforce the DOD requirements established in
     Recommendations 1. and 2.

      Management Comments. The Office of the Assistant Secretary of Defense
      (Command, Control, Communications, and Intelligence) concurred with our
      recommendations.     Management currently is updating the Management Plan.
      Management stated that the reporting requirements must be updated quarterly and
      that our audit results will be used to improve the reporting instructions.
      Additionally, management will propose actions by the Deputy Secretary of
      Defense to clarify the importance of year 2000 compliance and the enforcement of
      reporting and evaluation requirements.

      Audit Response. Although management concurred with the recommendations,
      management did not provide the specific actions to be implemented. Management
      stated that the Management Plan would be updated but did not discuss how the
      updated Management Plan would clarify year 2000 certification requirements.
      Management stated that the reporting requirements must be updated quarterly to
      comply with the latest Office of Management and Budget guidance but did not
      state that the guidance would be modified to prevent the errors we identified in the
      report from occurring in the future. Because of the time sensitivity of this year
      2000 issue, the guidance on certification requirements needs to be effective
      immediately. Because the release date for the Management Plan update is
      unknown, an alternative solution may be to issue separate guidance on the
      certification process to be effective immediately. We request that the Assistant
      Secretary of Defense (Command, Control, Communications, and Intelligence)
      provide specific actions and associated completion dates for the guidance on the
      certification process, quarterly reporting, and the oversight process by
      July 6, 1998.




                                           13
Part II - Additional Information
Appendix A. Audit Process
    This is one of a series of reports being issued by the Inspector General, DOD, in
    accordance with an informal partnership with the Chief Information Officer,
    DOD, to monitor DOD efforts to address the Y2K computing challenge. For a
    listing of audit projects addressing this issue, see the Y2K webpage on IGNET
    at < http://www.ignet.gov/ > .


Scope and Methodology
    Work Performed. We reviewed and evaluated the DOD Year 2000
    Management Plan issued by the Assistant Secretary of Defense (Command,
    Control, Communications, and Intelligence) in April 1997. We compared the
    Y2K guidance and compliance checklists issued by the Army, the Air Force, the
    Defense Logistics Agency, and the Defense Information Systems Agency with
    the Management Plan guidance and the Y2K compliance checklist. We
    distributed a questionnaire to the system representatives for 87 statistically
    selected systems from the 430 DOD mission-critical systems reported as
    compliant to determine the basis used for certifying the system as Y2K
    compliant. We performed an analysis of the questionnaire responses and
    evaluated the year 2000 certification process of selected mission-critical DOD
    information technology systems as implemented by the DOD Components.

    Limitations to Audit Scope. The Management Plan requires external
    interfaces to be validated as Y2K compliant for the system to be certified as
    Y2K compliant. However, for the purpose of this audit, we asked questions
    regarding the specific system statistically selected; therefore, we did not ensure
    in all cases that external interfaces or operating systems for the specific audited
    system were compliant.

    Use of Computer-Processed Data. No computer-processed data were used in
    the course of the audit.

    Use of Technical Assistance. Assistance was provided by an Operations
    Research Analyst of the Quantitative Method Division of the Office of the
    Assistant Inspector General for Auditing, DOD. He assisted us in generating a
    random sample and projecting the results from our sample to the sample
    universe.

    Audit Type, Dates, and Standards. We performed this program audit from
    December 1997 through March 1998 in accordance with auditing standards
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DOD.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DOD. Further details are available on request.


                                         16
                                                          Appendix A. Audit Process

    Management Control Program. We did not review the management control
    program related to the overall audit objective because DOD recognized the YZK
    issue as a material management control weakness area in the FY 1997 Annual
    Statement of Assurance. This report does present a material management
    control weakness. Specifically, the management controls are not adequate to
    ensure accurate quarterly reporting. However, separate reporting of that
    weakness is unnecessary.


Statistical Sampling Methodology and Sampling Results

     Sampling Purpose. The purpose of the statistical sampling plan is to estimate
     the number of mission-critical DOD information technology systems that were
     certified or tested and those that were not certified or tested.

     Universe Represented and Sampling Design. The table on page 7 of this
     report includes the universe data. The 430 systems were reported to the Office
     of Management and Budget as compliant by the Assistant Secretary of Defense
     (Command, Control, Communications, and Intelligence) in November 1997.
     We asked the system representatives for the statistically selected systems to
     answer a questionnaire regarding the date on which the system was certified and
     the basis for certification (such as testing, inspection, or certification by another
     organization). We randomly selected 87 systems from the sample universe.

     Certification Sampling Results. Of those 87 systems, 22 systems were
     certified, 61 systems were not certified, and no results were received for
     4 systems. Statistical projections of the results of systems certified and not
     certified are calculated over the universe by using 9%percent confidence levels.
     The projected results for certification are in Table A-l.

          Table A-l. DoD Mission-Critical Systems Certified for Year 2000
                                  Compliance

                             Lower Bound            Point Estimate         Unner Bound
     Certified                                            109
     Not Certified               2:;                      301                  G
     No Results                        4                   20                   37

     The above projections show that we are 9%percent confident that between
     74 and 144 systems were certified. For the purpose of this report, we used the
     unbiased point estimate of 109 for the number of systems certified. The results
     can be interpreted similarly for the systems not certified and the systems with no
     results.

     Projections for the total values for lower and upper bounds have been calculated
     independently and may not necessarily be the direct sum of two individual
     components.

     Validation Sampling Results. Of the 87 sampled systems, 32 systems were
     tested for Y2K compliance, 14 systems were determined to be Y2K compliant

                                           17
Appendix A. Audit Process

      through an inspection of the system without testing, 7 systems were classified as
      Y2K compliant based on statements from another organization, 30 systems were
      not tested or inspected and did not obtain a statement from another organization
      regarding compliance, and 4 systems did not provide answers to the
      questionnaire. Statistical projections of the results of Y2K compliance
      validation are calculated over the universe by using 95percent confidence
      levels. The projected results for testing are in Table A-2.

           Table A-2. DoD Mission-Critical Systems Validated for Year 2000
                                    Compliance

                               Lower Bound        Point Estimate        Unner Bound
      Tested                      119                   158                197
      Inspected                    40                    69                 99
      Statements from
        another organization       13                    35
      No testing                  110                   148                 1581
      No results                    4                    20                  37

      The above projections show that we are 95percent confident that between
      119 and 197 systems were actually tested for Y2K compliance. For the purpose
      of this report, we used the unbiased point estimate of 158 for the number of
      systems actually tested. The results can be interpreted similarly for the systems
      inspected, systems classified as Y2K compliant based on statements from
      another organization, systems not tested, and systems with no results.

      Projections for the total values for lower and upper bounds have been calculated
      independently and may not necessarily be the direct sum of two individual
      components.




                                          18
Appendix B. Summary of Prior Coverage
    The General Accounting Office and the Inspector General, DOD, have
    conducted multiple reviews related to Y2K issues. General Accounting Office
    reports can be accessed over the Internet at http://www.gao.gov. Inspector
    General, DOD, reports can be accessed over the Internet at
    http://www.dodig.osd.mil.


Inspector General, DOD
    Inspector General, DoD, Report No. 98-077, “Year 2000 Computing
    Problem Reports: August 1997 Report,” February 18, 1998. The report
    states that the DOD Component second quarter reports on the Y2K issue did not
    provide all the required information and were not fully reliable. Accordingly,
    DOD will not have an adequate baseline to effectively measure its Y2K
    progress. Additionally, DOD Components did not consistently interpret the
    Chief Information Officer reporting requirements. The Management Plan
    provides definitions for “system” and “mission-critical,” but definitions are
    nonspecific and open to interpretation. Also, DOD did not establish clear
    reporting guidance and requirements. The report recommended that the
    Assistant Secretary of Defense (Command, Control, Communications, and
    Intelligence), in the role of the DOD Chief Information Officer, update the DOD
    Year 2ooO Management Plan to reflect changes in reporting requirements and
    include adequate procedures on how Y2K quarterly reports should reconcile.
    The Assistant Secretary of Defense (Command, Control, Communications, and
    Intelligence) concurred and stated that the DOD Y2K Management Plan would
    be updated accordingly.

    Inspector General, DOD, Report No. 98-074, “Sharing Year 2000 Testing
    Information on DoD Information Technology Systems,”
    February 12, 1998. The report states that DOD has designated the use of
    homepages on the Internet as the primary means of sharing Y2Krelated
    information, and DOD Components have made progress in establishing Y2K
    information on their respective homepages. However, the process for sharing
    Y2K testing information can be more effective. DOD Components may be
    inefficiently spending time-sensitive resources in solving the Y2K problem
    through the duplication of efforts and in attempting to locate accurate testing
    information. The ability to retrieve and use all appropriate testing information
    in a timely and efficient manner will be instrumental in the solution of the Y2K
    problem. The report recommended that the Assistant Secretary of Defense
    (Command, Control, Communications, and Intelligence), as the DOD Chief
    Information Officer, establish a DOD-sponsored Y2K testing information center
    within DOD for gathering, analyzing, storing, and disseminating Y2K-related
    testing information and provide Y2K hotline services to the DOD Components.
    Further, the report recommended that DOD Components be notified of the
    testing center’s Y2K role and responsibilities and of the DOD Components’
    responsibility to share testing information and that DOD intemet homepages be

                                        19
Appendix B. Summary of Prior Coverage

      organized to enable users to quickly and easily access the center for Y2K testing
      information. Although the Assistant Secretary of Defense (Command, Control,
      Communications, and Intelligence) concurred with the recommendations, our
      intent was to establish a DOD-sponsored Y2K testing information center,
      recognized by the other DOD Components, to organize and provide links to the
      Y2K testing information provided on the intemet by the DOD Components.
      Accordingly, we added recommendations to clarify the actions needed to
      sufficiently identify, publicize, and access sources of Y2K testing information.
      We requested comments on the additional recommendations.




                                           20
Appendix C. Certification and Testing Results
for Mission-Critical DOD Information Systems
Audited
                No                        Certification by          Inspection
              Testing’       Testing’   Another Organization”    Without Testing’   Certified’   Note6
             ~           ~

Department of the Air Force

1.             Yes             No              No                    No               No         a
2.             Yes             No              No                    No               No         C

3.             Yes             No              No                    No               No         d
4.             Yes             No              No                    No               No         a, d. c
5.             No              Yes             No                    No               Yes        d
6.             No              Yes             No                    No               Yes
7.             No              Yes             No                    No               Yes
8.             Yes             No              No                    No               No
9.             Yes             No              No                    No               No
10.            Yes             No              No                    No               No
II.            Yes             No              No                    No               No
12.            Yes             No              No                    No               NV
13.            N/A’            N/A             N/A                   N/A              N/A
14.            Yes             No              No                    No               No
15.            No              Yes             No                    No               Yes
16.            Yes             No              No                    No               No         b. e
17.            Yes             No              No                    No               No         a
18.            No              Yes             No                    No               Yes
 19.           No              Yes             No                    No               No         b, d
20.            Yes             No              No                    No               No         a
21.            Yes             No              No                    No               No         C

22.            No              No              No                    Yes              No
23.            No              Yes             No                    No               No
24.            No              Yes             No                    No               Yes

Department of the Army

 25.            No             No               No                    Yes               No
 26.            No             No               Yes                   No                Yes
 27.            No             No               Yes                   No                No
 28.            Yes            No               No                    No                No
 29.            Yes            No               No                    No                No
 30.            No             No               No                    Yes               No
 31.            No             No               No                    Yes               No
 32.            Yes            No               No                    No                No
 33.            No             No               Yes                   No                No
 34.            Yes            No               No                    No                No           a
 35.            No             Yes              No                    No                Yes
 36.            Yes            No               No                    No                No           b
 37.            No             Yes              No                    No                No
 38.            No             Yes              No                    No                Yes
 39.            No             No               Yes                   No                No           a. e



 Note: See the footnotes at the end of the appendix.




                                                                21
Appendix C. Certification and Testing Results for Mission-Critical DOD
Information Systems Audited

                No                      Certification by        Inspection
              Testing      Testing    Another Organization   Without Testing   Certified


Department of the Army (cont’d)

40.            No            Yes                  No               No             No       e
41.            No            Yes                  No               No             No       e
42.            Yes           No                   No               No             Yes      h
43.            No            Yes                  No               No             No
44.            No            No                   No               Yes            No       e
45.            No            No                   No               Yes            No       d, f
46.            Yes           No                   No               No             No       i
47.            No            No                   No               Yes            No       e
48.            No            No                   Yes              No             No       e
49.            N/A           N/A                  N/A              N/A            NIA      d
50.            No            No                   No               Yes            No       f
51.            Yes           No                   No               No             No
52.            No            Yes                  No               No             Yes
53.            No            Yes                  No               No             Yes
54.            Yes           No                   No               No             No
55.            No            No                   Yes              No             No
56.            No            No                   Yes              No             No
57.
58.
59.
               Yes
               No
               No
                             No
                             No
                             No
                                                  No
                                                  No
                                                  No
                                                                   No
                                                                   Yes
                                                                   Yes
                                                                                  No
                                                                                  No
                                                                                  No
                                                                                           a
                                                                                           f
60.            No            Yes                  No               No             Yes
61.            No            No                   No               Yes            No       f
62.            Yes           No                   No               No             No       a. e
63.            NIA           N/A                  N/A              NIA            NIA      d
64.            NIA           N/A                  N/A              N/A            N/A      d

Defense Finance and Accounting Servtce

65.            No            Yes                  No               No               Yes
66.            No            Yes                  No               No               Yes

Defense Information Systems Agency

67.            No            Yes                   No              No               No
68.            Yes           No                    No              No               No
69.            No            Yes                   No              No               No

Defense Logistics Agency

70.            No            Yes                   No              No               Yes
71.            No            Yes                   No              No               Yes

Defense Special Weapons Agency

 72.           No             No                  No               Yes              No

Assistant Secretary of Defense (Health Affairs)

 73.           Yes            No                  No               No               No
 74.           No             Yes                 No               No               No
 75.           No             No                  No                Yes             No

Note: See the footnotes at the end of the appendix.




                                                             22
                     Appendix C. Certification and Testing Results for Mission-Critical DoD
                                                              Information Svstems Audited

                        No                        Certification by       Inspection
                    Testing         Testing    Another Organization   Without Testing   Certified               Note
                -               -

Assistant   Secretary     of Defense (Health Affairs)   (cont’d)

76.                 No                 Yes               No                 No               No
77.                 No                 Yes               No                 No               Yes
78.                 Yes                No                No                 No               No             e

Washington     Headquarters         Services

79.                 No                 Yes               No                 No               ND
80.                 Yes                No                No                 No               No             a
81.                 No                 Yes               No                 No               Yes
82.                 No                 No                No                 Yes              No
83.                 No                 Yes               No                 No               No
 84.                Yes                No                No                 No               No             b. e
 85.                No                 Yes               No                 No               Yes
 86.                No                 Yes               No                 No               Yes
 87.                 No                Yes               No                 No               Yes



‘As of November 1997. the system was reported as compliant without testing, an inspection without testing. or a statement from
another organization  regarding Y2K compliance.
%he system was independently tested or tested by the DOD Component for Y2K compliance.
%he system was classified as compliant based on a statement from another organization.
Crhe system was inspected for ability to process data, but no testing was performed to determine Y2K compliance.
‘The point of contact provided a Y2K compliance checklist signed as of November 1997.
?‘he following notes apply to the system at the time of the audit:
            a. System is in the renovation phase.
            b. System is in the validation phase.
            c. System is under development.
           d. System is no longer classified as mission-critical.
            e. System is currently being tested or will be tested in the future.
            f. Year 2000 dates do not impact the system.
            g. Element is an office, not a system.
            h. Software for system was not developed.
            i. System had not been received by point of contact.
‘Qu estion not answered on questionnaire.




                                                                      23
Appendix D. Report Distribution


Offke of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
   Deputy Under Secretary of Defense (Logistics)
   Director, Defense Procurement
   Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense (Command, Control, Communications,      and Intelligence)
   DOD Year 2000 Project Officer
Assistant Secretary of Defense (Health Affairs)
Assistant Secretary of Defense (Public AfTairs)


Joint Staff
Director, Joint Staff


Department of the Army
Auditor General, Department of the Army
Chief Information Officer, Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management   and Comptroller)
Auditor General, Department of the Navy
Chief Information Officer, Navy


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management   and Comptroller)
Auditor General, Department of the Air Force
Chief Information Officer, Air Force




                                            24
                                                   Appendix D. Report Distribution



Unified Commands
Commander   in Chief,   U.S. European Command
Commander   in Chief,   U.S. Pacific Command
Commander   in Chief,   U.S. Atlantic Command
Commander   in Chief,   U.S. Southern Command
Commander   in Chief,   U.S. Central Command
Commander   in Chief,   U.S. Space Command
Commander   in Chief, U.S. Special Operations Command
Commander   in Chief, U .S . Transportation Command
Commander   in Chief, U.S. Strategic Command

Other Defense Organizations
Director, Ballistic Missile Defense Organization
   Chief Information Offker, Ballistic Missile Defense Organization
Director, Defense Advanced Research Projects Agency
    Chief Information Offricer, Defense Advanced Research Projects Agency
Director, Defense Commissary Agency
    Chief Information Officer, Defense Commissary Agency
Director, Defense Contract Audit Agency
    Chief Information Officer, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
    Chief Information Officer, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
    Inspector General, Defense Information Systems Agency
    Chief Information Offtcer, Defense Information Systems Agency
Director, Defense Legal Services Agency
    Chief Information Officer, Defense Legal Services Agency
Director, Defense Logistics Agency
    Chief Information Officer, Defense Logistics Agency
Director, Defense Security Assistance Agency
    Chief Information Officer, Defense Security Assistance Agency
Director, Defense Security Service
    Chief Information Officer, Defense Security Service
Director, Defense Special Weapons Agency
    Chief Information Officer, Defense Special Weapons Agency
Director, National Security Agency
     Inspector General, National Security Agency
Director, On-Site Inspection Agency
     Chief Information Officer, On-Site Inspection Agency
 Director, Washington Headquarters Services
 Inspector General, Defense Intelligence Agency
 Inspector General, National Imagery and Mapping Agency




                                            25
Appendix D. Report Distribution




Non-Defense Federal Organizations and Individuals
Chief Information Officer, General Services Administration
Office of Management and Budget
   Office of Information and Regulatory AEairs
Technical Information Center, National Security and International AfIairs Division,
   General Accounting Office
Director, Defense Information and Financial Management Systems, Accounting and
   Information Management Division, General Accounting Office

Chairman and ranking minority member of each of the following congressional committees
   and subcommittees:

   Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
   Senate Committee on Armed Services
   Senate Committee on Governmental Affairs
   Senate Special Committee on the Year 2000 Technology Problem
   House Committee on Appropriations
   House Subcommittee on National Security, Committee on Appropriations
   House Committee on Government Reform and Oversight
   House Subcommittee on Government Management, Information, and Technology,
      Committee on Government Reform and Oversight
   House Subcommittee on National Security, International Affairs, and Criminal Justice,
      Committee on Government Reform and Oversight
   House Committee on National Security




                                             26
Part III - Management Comments
Office of the Assistant Secretary of Defense
(Command, Control, Communications, and
Intelligence) Comments

              OFFICE OF THE ASSISTANT SECRETARY OF DEFENSE
                            OOW DEFENSEPENTAGON
                           WAaHINGToN.   DC   20x)1-aDDo
                               May 11, 1998




        WEWDRAWDDWFOR DIRECTOR ACQUISITIONWAWAGEWENT. OIG

        Subject: Audit Report on Year 2000 Certificationof
                 Mission-CriticalDoD InformationTechnology
                 Systems (Project No. BAS-00111


              We appreciate the work done by your staff in examining
        certification and compliance reporting of DoD information
        rechnology systems.  The reporting disparities identified
        by your staff point to the need for explanations in
        definingreporting requirements. They also point out
        inaccuraciesin reports to OSD from the DoD Components.

             We concur with each of your recommendations. We are
        in the process of updating the DoD Year 2000 Management
        Plan. We need your review of the update to make sure it
        improvesguidance on verificationand validation
        requirements,especially with regard to independent
        certificationrather than self-certification, We also must
        update our reporting requirementsquarterly, since the
        Office of Management and Budget modifies their request with
        each successivereport. We will use the results of your
        audit to improve the reporting instructions. In addition,
        we will propose actions by the Deputy Secretary of Defense
        to make clear the importance of Year 2000 compliance and
        the enforcamentof reporting and evaluation requirements.

            We look forward to using the results of this and other
        audits to make sure DoD's Year 2000 efforts are successful.

             Should you have any questions,please contact
        Us. Sally Brown of the Year 2000 Oversight and Contingency
        PlanningOffice (703) 614-6934.




                               28
Audit Team Members

This report was prepared by the Acquisition Management Directorate, Office of
the Assistant Inspector General for Auditing, DOD.

Thomas F. Gimble
Patricia A. Brannin
Mary Lu Ugone
James W. Hutchinson
Virginia G. Rogers
Jennifer L. Zucal
Frank C. Sonsini
Lusk F. Penn
